Bursch Law PLLC

JOHN J. BORSCH
616.450.4235
jbursch@burschlaw.corn

Attorney at Law

June 18, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

David Seidemann, et al. v. Professional Staff Congress Local 2334, et
al., No. 20-1725

Dear Mr. Harris:
I am counsel of record for Petitioners in the above-captioned matter.
Pursuant to Supreme Court rule 37.2(a), I consent to the timely filing of any amicus
curiae briefs in this case, without the need for individual written consent and
regardless of the side supported.

Best regards,
John J. Bursch
John J. Bursch
Counsel for Petitioner

Service List:
Scott A. Kronland
Altshuler Berzon LLP
177 Post Street, Suite 300
San Francisco, CA 94108
Office: (415) 421-7151
Cell: (415) 260-7201
skronland@altber.com
Counsel for Respondents

RECEIVED
JUN 2 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

